                            SOCIAL SECURITY


February 28, 2005

The Honorable Adam Putnam
Chairman, Subcommittee on Technology, Information Policy,
 Intergovernmental Relations and the Census
Committee on Government Reform
House of Representatives
Washington, D.C. 20515

Dear Mr. Putnam:

During testimony on September 22, 2004 before your Subcommittee, I discussed
Federal agencies’ use of Social Security numbers. As part of this discussion, I
mentioned the 2003 President’s Council on Integrity and Efficiency report, Federal
Agencies’ Controls over the Access, Disclosure and Use of Social Security Numbers by
External Entities. Because of your continuing interest in the use and protection of
Social Security numbers, we conducted a follow-up review to determine the status of
corrective actions Federal agencies have taken to address recommendations resulting
from this review. The enclosed report summarizes the results of our review.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact H. Douglas Cunningham, Assistant Inspector General for
Congressional and Intra-Governmental Liaison, at (202) 358-6319.

                                                Sincerely,



                                                S
                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Jo Anne B. Barnhart




            SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
  CONGRESSIONAL RESPONSE
         REPORT

Follow-up of Federal Agencies’ Controls
 over the Access, Disclosure, and Use of
  Social Security Numbers by External
                 Entities

              A-08-05-25101




              February 2005
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

       Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
       Promote economy, effectiveness, and efficiency within the agency.
       Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
       Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
       Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

      To ensure objectivity, the IG Act empowers the IG with:

       Independence to determine what reviews to perform.
       Access to all information necessary for the reviews.
       Authority to publish findings and recommendations based on the
      reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                          Background
OBJECTIVE

During testimony on September 22, 2004 before the House Committee on Government
Reform, Subcommittee on Technology, Information Policy, Intergovernmental Relations
and the Census, we discussed Federal agencies’ use of Social Security numbers
(SSN). As part of the discussion, the Acting Inspector General mentioned the
2003 President’s Council on Integrity and Efficiency (PCIE) report, Federal Agencies’
Controls over the Access, Disclosure and Use of Social Security Numbers by External
Entities. Because of continuing interest in the use and protection of SSNs, we
conducted a follow-up review to determine the status of corrective actions Federal
agencies have taken to address recommendations resulting from this review.

BACKGROUND AND GENERAL DESCRIPTION

The SSN was created in 1936 as a means of establishing and maintaining workers’
earnings and eligibility for Social Security benefits. However, over the years, the SSN
has become a de facto national identifier used by Federal agencies, State and local
governments, and private organizations.

Although no single Federal law regulates the overall use and disclosure of SSNs by
Federal agencies, the Freedom of Information Act of 1966, the Privacy Act of 1974, and
the Social Security Act Amendments of 1990 generally govern disclosure and use of
SSNs (see Appendix A). In addition, a number of Federal laws lay out a framework for
Federal agencies to follow when they establish information security programs that
protect sensitive personal information, such as SSNs.1

The expanded use of the SSN as a national identifier provides a tempting means for
many unscrupulous individuals to acquire an SSN and use it for illegal purposes. While
no one can fully prevent SSN misuse, Federal agencies have some responsibility to
limit the risk of unauthorized disclosure of SSNs. Because of concerns related to
sharing of personal information and occurrences of identity theft, in 2002, Congress
asked that we look at how Federal agencies disseminate and control the use of SSNs.
After consulting with the PCIE, we agreed to serve as lead for 15 participating Offices of
Inspector General (OIG) and prepare the final report (see Appendix B). Most OIGs
issued reports to their respective departments or agencies that included
recommendations for corrective actions. Each OIG focused its work on one program


1
  See National Defense Authorization Act for Fiscal Year 2001, Pub. L. No. 106-398, § 1061, 114 Stat.
1654 (2000); National Defense Authorization Act for Fiscal Year 1996, Pub. L. No. 104-106, § 2(a)(4) and
(5), 110 Stat. 186 (1996); the Paperwork Reduction Act of 1995, Pub. L. No. 104-13, 109 Stat.
163 (1995); the Computer Security Act of 1987, Pub. L. No. 100-235, 101 Stat. 1724 (1988). See also
Office of Management and Budget Circular A-130, Management of Federal Information Resources
(November 28, 2000).

Follow-up of Federal Agencies’ Controls over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)                                                                   1
within its respective agency.2 As such, we concluded that any findings should not be
extrapolated to all programs in each agency. See Appendix C for the specific program
each OIG reviewed.

This report serves as a follow up to the 2003 PCIE report, Federal Agencies’ Controls
over the Access, Disclosure and Use of Social Security Numbers by External Entities.
In performing this review, we requested that each OIG provide us the status of
corrective actions taken by their respective agency to address recommendations
resulting from the previous review. We did not request that each OIG determine
whether their respective agency was still at-risk for improper access, disclosure and use
of SSNs by external entities. As such, this report provides examples of some corrective
actions taken by Federal agencies and does not address whether the agencies have
adequate SSN controls. We conducted our review in accordance with the PCIE’s
Quality Standards for Inspections.




2
    The Department of Defense assessed SSN controls for three programs.

Follow-up of Federal Agencies’ Controls over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)                                                    2
                                                          Results of Review
In 2003, most OIGs reported their respective agencies had inadequate controls over the
access, disclosure and use of SSNs by external entities. Of the 15 agencies reviewed,

•   14 lacked adequate controls over contractors’ access to, and use of, SSNs;

•   9 had inadequate controls over the access to SSNs maintained in their computer
    systems;

•   2 did not have adequate controls over non-Government and/or non-contractor
    entities’ access to, and use of, SSNs; and

•   1 did not make legal and informed SSN disclosures.

We concluded that Federal agencies would benefit by strengthening some of their
controls over the access, disclosure and use of SSNs by external entities. We are
encouraged to learn that all 15 Federal agencies have taken corrective actions to
strengthen some of their SSN controls.

CONTRACTORS’ ACCESS TO, AND USE OF, SSNs

Federal agencies incorporate different practices to ensure they have appropriate
controls over contractor access to, and use of, SSNs. These include, but are not limited
to, passwords and computer identifications; access to information on a need-to-know
basis; periodic review of current computer users; staff and contractor confidentiality
agreements; security awareness training; and secure work areas. Despite these
safeguard requirements, 14 (93 percent) of 15 OIGs previously reported their respective
agency had inadequate controls over contractors’ access to, and use of, SSNs (see
Appendix C).

As illustrated in the following examples, all of the 14 Federal agencies have taken some
actions to address the vulnerabilities identified.3

•   Eight OIGs reported their agencies performed site inspections to ensure contractors
    upheld their obligation to protect the confidentiality and security of SSNs.

•   Four OIGs reported their respective agencies provided employees and contracting
    officers security awareness and/or Privacy Act training.

•   One OIG reported its agency added audit steps for selected reviews to test
    contractors’ procedures for safeguarding individuals’ personal identifying
    information, such as SSNs.
3
 Because some OIGs reported their agencies have taken multiple corrective actions, the number of
examples exceeds the number of Federal agencies.

Follow-up of Federal Agencies’ Controls over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)                                                               3
•   Another OIG reported its agency reviewed contractors’ security plans and includes
    non-agency employees who have access to agency computer systems in its annual
    security audit.

•   Another OIG reported its agency requires that new employees and contractors
    complete an Information Technology Access Request Form to gain access to the
    agency’s mainframe. This agency also established controls to ensure it deletes
    contractors’ systems access after they leave the agency.

ACCESS TO INDIVIDUALS’ SSNs MAINTAINED IN AGENCY DATABASES

In the 2003 review, Federal agencies that allowed access to their databases generally
had standard information security controls in place. Agency controls included, but were
not limited to, security clearances before granting computer access, computer access
controlled by job title, unique user identification and passwords, firewalls, encrypted
data transportation, intrusion detection systems, and physical access controls. Despite
these safeguards, 9 (60 percent) of 15 OIGs reported their respective agencies had
inadequate controls over access to SSNs maintained in their databases. Because of
the sensitive nature of information security issues, we chose to withhold detailed
descriptions of information security control weaknesses identified by OIGs (see
Appendix C).

As illustrated in the following examples, all of the nine Federal agencies have taken
actions to address these control weaknesses.

•   One OIG reported its agency instructs all system users to ensure contractors are
    aware of agency policies and procedures and Federal laws prohibiting the disclosure
    of SSN information. This agency removes the system user’s access upon receipt of
    the user’s termination letter and requires that each system user have security
    clearance at a level commensurate with their duties.

•   Another OIG reported its agency revised its computer access forms to identify the
    user’s security level and access needs. All of the agency’s forms include the
    statement, “Any screen or printout displaying names and SSNs contains confidential
    information that must be secure.”

NON-GOVERNMENT/NON-CONTRACTOR ENTITIES’ ACCESS TO, AND USE OF,
SSNs

In the 2003 review, 2 (13 percent) of 15 OIGs reported their agencies did not have
adequate controls over non-Government/non-contractor entities’ access to, and use of,
SSNs. One OIG reported its agency had no standard contract language to include
Privacy Act safeguards. Another OIG reported its agency had not established financial
standards for outside parties to meet before accessing data containing SSN information
(see Appendix C).



Follow-up of Federal Agencies’ Controls over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)                                                    4
As illustrated in the following examples, these Federal agencies have taken some
actions to address the vulnerabilities identified.

•   One OIG reported its agency established standards for safeguarding SSNs. In
    addition, the agency incorporated security features into all phases of its information
    technology acquisition process and established security requirements for third
    parties who wish to contract with the agency to provide automated data processing
    services.

•   The other OIG reported its agency developed a cover letter that it sends to
    independent physicians encouraging them to comply with the principles of the
    Privacy Act.

DISCLOSURES OF SSNs TO EXTERNAL ENTITIES

In the 2003 review, 1 (7 percent) of 15 OIGs reported its agency did not make legal and
informed SSN disclosures (see Appendix C). This OIG identified instances in which the
agency did not inform research study participants that providing their SSNs was
voluntary. This OIG recommended that its agency establish guidelines to ensure
confidentiality of SSNs. The agency revised a staff manual that addresses handling
private information, such as SSNs. The manual states that all contractors are
responsible for strictly adhering to the procedures established in agency guidelines. It
also requires that management conduct periodic inspections of contractor sites and that
all contract employees sign an agreement for the protection of private information.

Although the 14 remaining OIGs reported their agencies generally made legal and
informed SSN disclosures,4 they identified instances in which agency practices
increased the risk that external entities may have improperly obtained and misused
SSNs. One OIG identified instances in which its agency unnecessarily displayed SSNs
on documents it sent to external entities that may not have had a need to know.
Another OIG identified instances in which its agency inadvertently omitted the Privacy
Act notice on one of its forms. The following examples illustrate some of the corrective
actions taken by Federal agencies.

•   One OIG reported its agency established new policies to limit the display of SSNs on
    correspondence.

•   Another OIG reported its agency revised one of its forms to include the Privacy Act
    notice.




4
 For purposes of this report, we consider SSN disclosure to have occurred when an agency provides an
SSN to an external entity that did not already have it.

Follow-up of Federal Agencies’ Controls over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)                                                                   5
                                                                         Conclusions
We previously reported that some Federal agencies were at-risk for improper access,
disclosure and use of SSNs by external entities, despite safeguards to prevent such
activity. As such, we concluded that Federal agencies would benefit by strengthening
some of their SSN controls. We are encouraged that all OIGs reported their respective
agencies have taken some corrective actions to strengthen controls over the access,
disclosure and use of SSNs by external entities. Given the potential for individuals to
improperly obtain and misuse SSNs, we encourage Federal agencies to continue their
efforts to safeguard SSNs.




Follow-up of Federal Agencies’ Controls over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)                                                      6
                                                Appendices
APPENDIX A – Federal Laws that Restrict Disclosure of the Social Security Number
APPENDIX B – Participating Offices of Inspector General
APPENDIX C – Summary of Inadequate Controls Identified by Offices of Inspector
             General




Follow-up of Federal Agencies’ Controls Over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)
                                                                                  Appendix A

Federal Laws that Restrict Disclosure of the
Social Security Number
The following Federal laws establish a framework for restricting Social Security number
(SSN) disclosure.1

The Freedom of Information Act of 1966 (5 U.S.C. § 552)

The Freedom of Information Act (FOIA) establishes a presumption that records in the
possession of Executive Branch agencies and departments are accessible to the
people. FOIA, as amended, provides that the public has a right of access to Federal
agency records, except for those records that are protected from disclosure by nine
stated exemptions. One of these exemptions allows the Government to withhold
information about individuals in personnel and medical files and similar files when the
disclosure would constitute a clearly unwarranted invasion of personal privacy.
According to Department of Justice guidance, agencies should withhold SSNs under
this FOIA exemption. This statute does not apply to State and local governments.

The Privacy Act of 1974 (5 U.S.C. § 552a)

The Privacy Act regulates Federal agencies’ collection, maintenance, use and
disclosure of personal information maintained by agencies in a system of records. The
Act prohibits the disclosure of any record contained in a system of records unless the
disclosure is made based on a written request or prior written consent of the person to
whom the records pertain, or is otherwise authorized by law. The Act authorizes
12 exceptions under which an agency may disclose information in its records.

The Act contains a number of additional provisions that restrict Federal agencies’ use of
personal information. For example, an agency must maintain in its records only such
information about an individual as is relevant and necessary to accomplish a purpose
required by statute or Executive Order of the President, and the agency must collect
information to the greatest extent practicable directly from the individual when the
information may result in an adverse determination about an individual’s rights, benefits
and privileges under Federal programs.




1
 Summarized from Social Security Numbers: Government Benefits from SSN Use but Could Provide
Better Safeguards (GAO-02-352, May 2002).

Follow-up of Federal Agencies’ Controls Over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)                                                           A-1
The Social Security Act Amendments of 1990 (42 U.S.C. § 405(c)(2)(C)(viii))2

The Social Security Act bars disclosure by Federal, State and local governments of
SSNs collected pursuant to laws enacted on or after October 1, 1990. This provision of
the Act also contains criminal penalties for “unauthorized willful disclosures” of SSNs.
Because the Act specifically cites willful disclosures, careless behavior or inadequate
safeguards may not be subject to criminal prosecution. Moreover, applicability of the
provision is further limited in many instances because it only applies to disclosure of
SSNs collected in accordance with laws enacted on or after October 1, 1990. For SSNs
collected by Federal entities pursuant to laws enacted before October 1, 1990, this
provision does not apply and therefore, would not restrict disclosing the SSN. Finally,
because the provision applies to disclosure of SSNs collected pursuant to laws requiring
SSNs, it is not clear if the provision also applies to disclosure of SSNs collected without
a statutory requirement to do so. This provision applies to Federal, State and local
governmental agencies; however, the applicability to courts is not clearly spelled out in
the law.




2
    Pub. L. No. 101-624, §2201, 104 Stat. 3359, 3951 (1990).

Follow-up of Federal Agencies’ Controls Over the Access, Disclosure, and Use of SSNs
by External Entities (A-08-05-25101)                                                    A-2
                                                    Appendix B

Participating Offices of Inspector General
Department of Agriculture

Department of Defense

Department of Education

Department of Health and Human Services

Department of Housing and Urban Development

Department of Labor

Department of the Treasury

Environmental Protection Agency

Federal Deposit Insurance Corporation

Nuclear Regulatory Commission

Office of Personnel Management

Railroad Retirement Board

Small Business Administration

Social Security Administration

Treasury Inspector General for Tax Administration
                                                                                                                            Appendix C

Summary of Inadequate Controls Identified
by Offices of Inspector General (OIG)

                                                                     INADEQUATE CONTROLS IDENTIFIED BY OIGs
    Federal Agency
    and Program(s) Reviewed                                                                                                    Legal and
                                                                                      Access to SSNs     Non-Government/        Informed
                                                                 Contractor            Maintained in      Non-contractor      Disclosure of
                                                              Access and Use of          Agency           Access and Use     SSNs to External
                                                                   SSNs                 Databases            of SSNs             Entities

    Department of Agriculture: Food Stamp Program                      X1                  X1
    Department of Defense: Defense Manpower Data
    Center; Army and Air Force Exchange Service,                       X2                  X3
    and Defense Security Service

    Department of Education: Pell Grant Program                        X                    X
    Department of Health and Human Services: Food                      X                                                             X
    and Drug Administration

    Department of Housing and Urban Development:                       X
    Office of Housing



1
    Inadequate controls identified at the State/local levels of the Food Stamp Program.
2
    Inadequate controls over contractor access and use of SSNs identified in the following Department of Defense agencies: Army and Air Force
     Exchange Service and Defense Security Service.
3
    Inadequate controls over access to SSNs maintained in its databases identified at the Defense Manpower Data Center.


Follow-up of Federal Agencies’ Controls Over the Access, Disclosure, and Use of SSNs by External Entities (A-08-05-25101)                C-1
                                                                          Inadequate Controls Identified by OIGs

 Federal Agency                                                                                                               Legal and
 and Program(s) Reviewed                                                            Access to SSNs       Non-Government/       Informed
                                                               Contractor            Maintained in        Non-contractor     Disclosure of
                                                            Access and Use of          Agency             Access and Use    SSNs to External
                                                                 SSNs                 Databases              of SSNs            Entities

 Department of Labor: Federal Employee                               X                                           X
 Compensation Act Program

 Department of the Treasury: Financial                               X                      X
 Management Service

 Environmental Protection Agency: Financial
 Management and Financial Services Divisions

 Federal Deposit Insurance Corporation                               X                                           X
 Nuclear Regulatory Commission                                       X                      X
 Office of Personnel Management: Retirement and
 Insurance Service, Office of Merit Systems                          X                      X
 Oversight and Effectiveness, and Investigations
 Service

 Railroad Retirement Board                                           X                      X
 Small Business Administration                                       X
 Social Security Administration: Title II Program                    X                      X
 Treasury Inspector General for Tax                                  X                      X
 Administration: Internal Revenue Service
                        TOTALS                                       14                     9                     2                1



Follow-up of Federal Agencies’ Controls Over the Access, Disclosure, and Use of SSNs by External Entities (A-08-05-25101)              C-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
